              U.S. Department of Energy
              Office of Inspector General
              Office of Inspections and Special Inquiries




Inspection Report

Electronic Recording of Telephone and
Radio Conversations by Sandia
Protective Force Management




DOE/IG-0701                              September 2005
ELECTRONIC RECORDING OF TELEPHONE AND RADIO
CONVERSATIONS BY SANDIA PROTECTIVE FORCE
MANAGEMENT

TABLE OF
CONTENTS

              OVERVIEW

              Introduction and Objectives       1

              Observations and Conclusions      1


              DETAILS OF FINDINGS

              Background                        3

              Consent                           4

              Beep Tones                        5

              Records Management Requirements   5

              DOE Order 1450.4                  6


              RECOMMENDATIONS                   7


              MANAGEMENT COMMENTS               7


              INSPECTOR COMMENTS                8


              APPENDICES

              A. Scope and Methodology          9

              B. Management Comments            10
Overview

INTRODUCTION       Sandia National Laboratory-New Mexico (Sandia) is a U.S.
AND OBJECTIVES     Department of Energy (DOE) research and development facility
                   operated by the Sandia Corporation. Sandia’s research and
                   development programs support critical strategic areas such as
                   nuclear weapons, nonproliferation, military technologies, energy,
                   and homeland security. Sandia maintains a protective force that is
                   trained and equipped to secure its facilities and operations.

                   During the course of an inspection of security-related matters at
                   Sandia, information was brought to our attention that Sandia
                   protective force management may be inappropriately recording
                   telephone conversations. As a result, we initiated a review to
                   determine whether this information was accurate.

OBSERVATIONS AND   We found that Sandia protective force management was regularly
CONCLUSIONS        recording both telephone and radio conversations on channels/lines
                   assigned to its operation and that these recordings were not done in
                   compliance with Department policies and procedures. Specifically:

                   •   Telephone conversations requiring all-party consent for each
                       specific instance, such as discussions of administrative matters
                       with protective force officers and conversations with
                       individuals outside the protective force, were recorded without
                       obtaining such consent;

                   •   Telephone line beep tones, which were an acceptable method
                       of alerting all parties to the recording of a conversation, were
                       disabled without an alternative notification mechanism being in
                       operation; and

                   •   Telephone and radio conversation recordings were retained and
                       used without provision for complying with records
                       management requirements.

                   We observed that the listing in Sandia’s contract that should
                   identify all applicable DOE directives did not contain the DOE
                   order that addresses the specific requirements applicable to the
                   recording of telephone and radio conversations. However, the
                   applicable DOE order was contained by reference in another DOE
                   directive on the contract listing. It was unclear to us whether the
                   exclusion of this order in Sandia’s contract was the direct cause of
                   any of the issues we identified. We also noted that the applicable




Page 1                                        Electronic Recording of Telephone
                                              and Radio Conversations by Sandia
                                              Protective Force Management
         DOE order, which was issued in 1992, is significantly outdated,
         which we believe should be addressed.

         During our review, we learned that there might be similar issues at
         Los Alamos National Laboratory (LANL). This was confirmed
         based upon a preliminary review of LANL protective force
         recording operations, where we found indications of non-
         consensual recording of conversations and the disabling of beep
         tones. As a result, on May 16, 2005, we issued a Management
         Alert on “Issues Associated with the Recording of Telephone and
         Radio Conversations” to advise the Administrator of the National
         Nuclear Security Administration (NNSA), who has cognizance
         over Sandia and LANL, of our preliminary findings. Given the
         potential implications, we wanted to give management an
         opportunity to take immediate corrective action, to include
         determining whether this problem existed at other NNSA sites.
         We also sent a copy of the alert to certain other key Department
         officials, so they could determine if this was a problem at the
         Department’s energy, science, and environment sites. A
         Department official subsequently advised us that a preliminary
         review of energy, science, and environment sites “confirmed that
         no unauthorized recording is presently being conducted by
         Protective Force contractors at those sites.” We will issue a
         separate final report on our findings at LANL upon the conclusion
         of that inspection.




Page 2                                    Observations and Conclusions
Details of Findings

BACKGROUND            The Sandia Protective Force operates central alarm stations (CASs)
                      that monitor alarms, closed circuit televisions, and operational
                      communications with protective force personnel. DOE M 473.1-1,
                      “Physical Protection Program Manual,” requires that “A continuous
                      electronic recording system must be provided for all security radio
                      traffic and telecommunications lines that provide support to the
                      CASs.” The manual also states that “This recording requires the
                      approval of the Office of Chief Information Officer or the Office of
                      Security” and refers the reader to DOE Order 1450.4, “Consensual
                      Listening-In To or Recording Telephone/Radio Conversations.”

                      DOE Order 1450.4 states that conversations on any Government or
                      contractor procured telephone or radio system shall not be consensually
                      listened-in to or recorded except under the following conditions:

                      •   Law Enforcement/National Security. When performed for law
                          enforcement, foreign intelligence, counterintelligence, or
                          communications security purposes in accordance with applicable
                          laws, regulations, and Executive orders governing such activities
                          and when documented by a written request citing the law
                          enforcement/national security need.

                      •   Public Safety. When performed for public safety purposes and when
                          documented by a written determination citing the public safety
                          needs. Proof of consent is the responsibility of the recording party.

                      •   Employee with a Disability. When performed by an employee
                          with a disability, and when documented by a determination that
                          the use of a listening-in to or recording device is required for full
                          performance of the duties of the employee’s position description.
                          Proof of consent is the responsibility of the recording party.

                      •   Public Service Monitoring. When performed by an official to
                          determine the quality of service, but only after an analysis of
                          alternatives and a written determination that telephone
                          conversation monitoring is required to perform the agency mission.
                          Proof of consent is the responsibility of the recording party.

                      •   Specific Instance (With All Party Agreement). When performed
                          with the consent of all parties for each specific instance.

                      According to the order, consent to record a conversation may be
                      obtained by prior mutual consent, an oral notification recorded at the
                      beginning of a call, or the automatic superimposing of a distinct signal
                      (e.g., beep tone) at regular intervals during the conversation.



Page 3                                                                 Details of Findings
CONSENT                              We found that telephone conversations requiring all-party consent
                                     for each specific instance were recorded without obtaining such
                                     consent. Specifically, protective force management routinely
                                     recorded all incoming and outgoing calls on shift captains’ and
                                     scheduling lieutenants’ telephone lines. The nature of most of
                                     these calls would require the “consent of all parties for each
                                     specific instance” under the provisions of DOE Order 1450.4. For
                                     example, protective force management was recording telephone
                                     conversations with protective force officers on issues relating to
                                     leave, overtime, training, scheduling, and discipline without the
                                     required consent. This included the use of the recorded lines by
                                     others besides the shift captains and scheduling lieutenants.
                                     Protective force management also recorded telephone
                                     conversations involving individuals outside the protective force
                                     without their consent, such as other Sandia personnel, Federal
                                     Sandia Site Office staff, and people outside the Sandia complex.

                                     We were told by a Sandia protective force official that the
                                     recording of telephone conversations relating to administrative and
                                     disciplinary matters was routine and that protective force officers
                                     were informed during “muster”1 that administrative telephone lines
                                     were recorded. The supporting muster record that protective force
                                     management subsequently provided to us stated that “Beginning
                                     1/19/05, at 0930 hours, all phone lines in Agate [Building 6578],
                                     Diamond [Building 956 North], HCC [Building 802 North] and
                                     SAS [Building 6581 South] will be recorded, to include
                                     lieutenants[’] phone line.” However, we obtained documentary
                                     and testimonial evidence that the recordings actually began in
                                     March 2003, nearly two years prior to the purported muster
                                     notification.

                                     Protective force management told us that they had no other proof
                                     that consent was obtained for the recording of “Specific Instance”
                                     conversations. We were told the question of whether the
                                     protective force could record these kinds of conversations was
                                     raised about two years ago by a protective force official, but the
                                     official was told “this is the way we have always done it.” We
                                     were told by a protective force official that at that point no further
                                     action was taken to determine if these recording activities were
                                     appropriate.

                                     Sandia Site Office officials told us that they were not aware of the
                                     nature and scope of the protective force recording activities and
1
  “Muster” is a meeting of protective force officers and supervisors prior to a shift to discuss relevant administrative
or operational issues.



Page 4                                                                                        Details of Findings
               that no deviations, waivers, variances, or exceptions to DOE policy
               had been authorized.

BEEP TONES     We found that telephone line beep tones, which were an acceptable
               method of alerting all parties to the recording of a conversation,
               were disabled without an alternative notification mechanism being
               in operation. The recording system used by the protective force
               utilizes the beep tone feature. However, during our field work, we
               observed that the beep tone was disabled on several recorded lines
               in the Sandia protective force Headquarters, Building 956 North, to
               include the telephone lines in the CAS, the shift captains’ office,
               and the scheduling lieutenants’ office. We were told that the beep
               tone on one telephone line in Building 956 North was disabled at
               the request of a protective force officer because the beep was too
               loud. Protective force staff members said that they did not realize
               the beep tone had been disabled on other recorded telephone lines
               in Building 956 North and did not know how this had occurred.
               Protective force staff members said they were not familiar with the
               requirements of DOE Order 1450.4 regarding consensually
               listening-in to or recording telephone conversations.

               Protective force management told us that they were not aware that
               beep tones had been disabled. Management also said it had not
               approved the disabling of this feature and that individual officers
               did not have the authority to request and approve such action.
               However, protective force management acknowledged that it did
               not have an established procedure for the use and operation of the
               recording system, to include identifying specific authorities and
               procedures for enabling or disabling recording features.

RECORDS        We found that telephone and radio conversation recordings were
MANAGEMENT     retained and used without provision for complying with records
REQUIREMENTS   management requirements. DOE Order 1450.4 states that “The
               recordings and records pertaining to listening-in to or recording of
               any conversations covered by this Order shall be used,
               safeguarded, and destroyed in accordance with the Departmental
               records management program.” The DOE records management
               program for “Records Maintained on Individuals” is found at Title
               10, Code of Federal Regulations (CFR), Part 1008. This regulation
               includes provisions for access to records, disclosure to third
               parties, and maintenance and establishment of a system of records.

               We determined that the Sandia protective force has archived all
               conversations recorded since 2003. In addition, the protective
               force maintains individual computer files on specific officers, with



Page 5                                                        Details of Findings
                   the file designated by the officer’s last name. We were told by a
                   protective force official that these files contain individual recorded
                   conversations that are relevant to situations related to disciplinary
                   action being taken or contemplated by protective force
                   management. However, the protective force had no policies or
                   procedures regarding storage, retrievability, access controls,
                   retention, and disposal of these recorded conversations. We were
                   told that protective force management had not provided any
                   guidance on these issues.

                   Protective force management stated that these recorded
                   conversations were sometimes used to “defend one’s self” from
                   litigation involving protective force officers. Protective force
                   management acknowledged that the protective force had no
                   policies or procedures that implemented the DOE records
                   management program. Management also acknowledged it was not
                   familiar with the requirements of the DOE records management
                   program as they related to the recorded conversations.

DOE ORDER 1450.4   We observed that the listing in Sandia’s contract that should
                   identify all applicable DOE directives did not contain the DOE
                   order that addresses the specific requirements applicable to the
                   recording of telephone and radio conversations. However, the
                   applicable DOE order was contained by reference in another DOE
                   directive on the contract listing. Specifically, DOE Order 1450.4
                   was only included in the Sandia contract by reference in
                   DOE M 473.1-1. Sandia Site Office officials acknowledged that
                   the order was excluded from the current contract, but they said
                   they were not sure why this occurred. The officials speculated that
                   its exclusion was due to the fact that the order did not contain a
                   section known as the “Contractor Requirements Document.”
                   Regardless, the Site Office officials agreed that the order should
                   have been in the contract, and they stated that they were prepared
                   to issue an immediate Contracting Officer’s “direction” to have it
                   included. It was unclear to us whether the exclusion of this order
                   in Sandia’s contract was the direct cause of any of the issues we
                   identified.

                   We also noted that DOE Order 1450.4, which is dated
                   November 12, 1992, is significantly outdated. The order requires
                   that the Director of Administration and Management (AD-1) and
                   the Director of the Office of Security Affairs (SA-1) shall
                   administer and approve plans to consensually listen-in to or record
                   telephone and radio conversations. However, there have been a
                   number of Department reorganizations since the directive was



Page 6                                                           Details of Findings
                  issued, resulting in these position titles being obsolete. Therefore,
                  the approval process within DOE to consensually listen-in to or
                  record telephone and radio conversations needs to be updated.
                  Further, as stated above, the order does not contain a “Contractor
                  Requirements Document,” which is normally included in more
                  current directives and which the Sandia Site Office stated may have
                  been the reason the order was excluded from Sandia’s contract.

RECOMMENDATIONS   We recommend that the Manager, Sandia Site Office, take
                  immediate action to ensure that Sandia:

                  1. Terminates recording operations that are not consistent with
                     DOE Manual 473.1-1 and DOE Order 1450.4.

                  2. Obtains “proof of consent” to record conversations, as required
                     by DOE Order 1450.4.

                  3. Conducts a full review of the use, maintenance, and storage of
                     recordings and records pertaining to recorded conversations to
                     assure full compliance with the Department records
                     management program.

                  4. Develops policies and procedures regarding storage,
                     retrievability, access controls, retention, and disposal of the
                     records relating to recorded conversations, consistent with the
                     Department records management program.

                  We also recommend the Manager, Sandia Site Office, ensures that:

                  5. DOE Order 1450.4 is included in the Sandia contract.

                  We recommend that the Chief Information Officer, in coordination
                  with the Director, Office of Security and Safety Performance
                  Assurance, take action to:

                  6. Update DOE Order 1450.4.

MANAGEMENT        In comments on our draft report, NNSA identified specific
COMMENTS          corrective actions that the Sandia Site Office has taken or will take
                  on the report recommendations. In addition, NNSA stated that
                  when the Associate Administrator for Defense Nuclear Security
                  became aware of the Inspector General’s concern, he immediately




Page 7                                                         Recommendations
                                                           Management Comments
            tasked all NNSA sites and the Service Center to conduct a review
            of the local policies, procedures, and activities relating to the
            recording of conversations on any telephone or radio system.
            NNSA also stated that the Associate Administrator is directing that
            the use, maintenance, and storage of any recordings and records
            pertaining to recorded conversations are compliant with the
            Department’s Records Management Program.

            The Office of Security and Safety Performance Assurance stated
            that the recommendations were appropriate to the documented
            findings, and the Chief Information Officer agreed with
            recommendation 6 and will plan to update DOE Order 1450.4.

INSPECTOR   We found management’s comments to be responsive to our report
COMMENTS    recommendations.




Page 8                                                 Inspector Comments
Appendix A

SCOPE AND     We conducted our inspection fieldwork in April 2005. We
METHODOLOGY   interviewed Sandia protective force and Sandia Site Office
              management officials regarding the recording system. We also
              interviewed individual protective force officers and reviewed
              protective force records relating to recording operations. We
              reviewed DOE policies and procedures regarding the recording of
              telephone and radio conversations and DOE, CFR, and Privacy Act
              requirements relating to the maintenance of records associated with
              these recordings. In addition, we coordinated with the OIG Office
              of Investigations regarding possible criminal violations.

              This inspection was conducted in accordance with the “Quality
              Standards for Inspections” issued by the President’s Council on
              Integrity and Efficiency.




Page 9                                               Scope and Methodology
Appendix B




Page 10      Management Comments
Appendix B         (continued)




Page 11      Management Comments
Appendix B         (continued)




Page 12      Management Comments
Appendix B         (continued)




Page 13      Management Comments
Appendix B         (continued)




Page 14      Management Comments
                                                                    IG Report No. DOE/IG-0701

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers’ requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report’s overall
   message clearer to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report that would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Leon Hutton at (202) 586-5798.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
